HHS/OIG-Audit--"Ceiling for Enhanced Federal Financial Participation Exceeded by the Missouri Department of Social Services, (A-07-98-01033)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ceiling for Enhanced Federal Financial Participation Exceeded by the
Missouri Department of Social Services," (A-07-98-01033)
March 19, 1999
Complete Text of Report is available in PDF format
(295 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Ceiling for Enhanced
Federal Financial Participation Exceeded by the Missouri Department of Social
Services. We found that the Missouri Department of Social Services (State)
claimed $207,466 in excess of the allowable ceiling established by the Administration
for Children and Families for enhanced Federal funding. Specifically, the State
claimed developmental costs totaling $46,824,330 at the enhanced Federal Financial
Participation rate, when the State was limited to $46,616,864. We are recommending
the State make a prior period adjustment to reduce its quarterly claim. State
officials did not provide a response to our report.